No. 20-

 

SUPREME COURT OF THE UNITED STATES

 

SONYA PORTER,
Petitioner,
v.

COMMONWEALTH OF PENNSYLVANIA,
Respondent.

 

ON PETITION FOR A WRIT OF CERTIORARI TO THE SUPREME COURT OF
PENNSYLVANIA

 

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

 

BRANDON P. GING
Deputy — Appeals Division
PA LD. #207116

STEVEN A. TEHOVNIK
Assistant Public Defender
*Counsel of Record
PA LD. #321443

ALLEGHENY COUNTY
OFFICE OF THE PUBLIC DEFENDER
#400 County Office Building
542 Forbes Avenue
Pittsburgh, PA 15219
(412) 350-2473

Counsel for Petitioner
Sonya Porter
MOTION TO PROCEED ON WRIT OF CERTIORARI
IN FORMA PAUPERIS

Pursuant to Rule 39 of this Honorable Court, Petition Sonya Porter requests
leave to file the accompanying Petition for Writ of Certiorari without prepayment of
costs and to proceed in forma pauperis.

Petitioner has previously been granted leave to proceed in forma pauperis by
the Superior Court of Pennsylvania on October 24, 2017, and by the Supreme Court
of Pennsylvania on January 29, 2020 pursuant to Pennsylvania Rule of Criminal
Procedure 552. The Allegheny County Office of the Public Defender has represented
Ms. Porter from the case’s inception at the trial court through the appellate courts,
including both the Superior and Supreme Courts of Pennsylvania, and counsel is
aware of no changes to her financial situation that would affect her qualification for
our serves as an indigent defendant and for in forma pauperis status.

Date: October 7, 2020
BRANDON P. GING

Deputy — Appeals Division
PA I.D. #207116

ak

STEVEN A. TEHOVNIK
Assistant Public Defender
*Counsel of Record
PA LD. #321443

ALLEGHENY COUNTY
OFFICE OF THE PUBLIC DEFENDER
#400 County Office Building
542 Forbes Avenue
Pittsburgh, PA 15219
(412) 350-2473
